BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief for Amici Curiae the States of Arizona,
Arkansas, Idaho, Indiana, Kansas, Louisiana,
Mississippi, Nebraska, Ohio, South Dakota, and Texas
in Support of Petitioner in 20-240, Commonwealth of
Kentucky v. Larry Lamont White, was sent via Three
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Three Day Service and e-mail to the
following parties listed below, this 28th day of
September, 2020:
Kathleen K. Schmidt
Department of Public Advocacy
5 Mill Creek Park, Suite 100
Frankfort, Kentucky 40601
(502) 564-8006
kathleen.schmidt@ky.gov
Counsel for Respondent
Matthew F. Kuhn
Deputy Solicitor General
Office of the Kentucky Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Matt.Kuhn@ky.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Frankl in Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Lacey Stover Gard
Deputy Solicitor General
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Lacey.Gard@azag.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 28, 2020.

DonnaJ. Wo
Becker Gallagher Le a l ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN 0. GALLAGHER
Notary Public, Sllle of Ohio
My Commission Ellplres
February 14, 2023

